Case 20-2r

Document 31, 04/10/2020, 281741 f

age1 of 1

1a

APPENDIX A

D. Conn.
19-cv-738
Thompson, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 10th day of April, two thousand twenty.
Present:
Susan L. Carney,
Richard J. Sullivan,
Joseph F. Bianco,
Circuit Judges.
In Re Sherri Speer,
Debtor.
Sherri Speer,
Debtor-Appellant,
20-255

v.
Michael Teiger, et al.,
Creditors-Appellees,
United States Trustee,
Trustee.

This Court has determined sua sponte that it lacks jurisdiction over this appeal because a final
order has not been issued by the bankruptcy court or district court as contemplated by 28 U.S.C.
§§ 158(d) and 1291. In re Fugazy Express, Inc., 982 F.2d 769, 775-76 (2d Cir. 1992). Upon due
consideration, it is hereby ORDERED that the appeal is DISMISSED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 3:19-cv-(

18-AWT Document 24 Filed 12/1:
4a

Page 1 of 2

APPENDIX D

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
In re:
BKY CASE NO. 14-21007 (AMN)
SHERI SPEER
CASE NO. 3:19-CV-738 (AWT)
Debtor.
SHERI SPEER,
Appellant,
v.
MICHAEL TIEGER,
Appellee,
CLIPPER REALTY TRUST,
Appellee,
SLS HEATING, LLC,
Appellee,
SEAPORT CAPITAL PARTNERS, LLC,
Appellee.

JUDGMENT
This action having come on for consideration of the appellant’s appeal of the
Bankruptcy Court’s decision entered in this bankruptcy proceeding before the
Honorable Alvin W. Thompson, United States District Judge.
On December 13, 2019, the Court having considered the full record of the
case including applicable principles of law, issued an order affirming the judgment of the
Bankruptcy Court. It is therefore;

Case 3:19-cv-0f

3-AWT Document 24 Filed 12/19

Page 2 of 2

5a
ORDERED, ADJUDGED AND DECREED that judgment is hereby entered
affirming the judgment of the Bankruptcy Court, and this case is closed.
Dated at Hartford, Connecticut, this 19th day of December, 2019.

ROBIN D. TABORA, Clerk
By /s/ Linda S. Ferguson
Linda S. Ferguson
Deputy Clerk
EOD: 12/19/19

Case 20-2C

document 39, 05/27/2020, 2848159

ige1 of 1

2a

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
27th day of May, two thousand twenty.

In Re: Sheri Speer,
Debtor.
****************************

Sheri Speer,

ORDER
Docket No: 20-255

Debtor-Appel lant,
v.
Michael Teiger, Clipper Realty Trust, SLS Heating, LLC,
Seaport Capital Partners, LLC,
Creditors - Appellees,
United States Trustee,
Trustee.

Appellant, Sheri Speer, filed a motion for panel reconsideration, or, in the alternative, for
reconsideration en banc. The panel that determined the appeal has considered the request for
reconsideration, and the active members of the Court have considered the request for
reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

•„ • .

Case 20-2

Document 40, 06/03/2020, 285356

^age1 of 1

MANDATE

APPENDIX C
D. Conn.
19-cv-738
Thompson, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 10th day of April, two thousand twenty.
Present:
Susan L. Carney,
Richard J. Sullivan,
Joseph F. Bianco,
Circuit Judges.
In Re Sherri Speer,
Debtor.
Sherri Speer,
Debtor-Appellant,
20-255

v.

Michael Teiger, et al.,
Creditors-Appellees,
United States Trustee,
Trustee.
This Court has determined sua sponte that it lacks jurisdiction over this appeal because a final
order has not been issued by the bankruptcy court or district court as contemplated by 28 U.S.C.
§§ 158(d) and 1291. In re Fugazy Express, Inc., 982 F.2d 769, 775-76 (2d Cir. 1992). Upon due
consideration, it is hereby ORDERED that the appeal is DISMISSED.

A True Copy

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

MAN D^rEISS^DON 36/03/2020

CTB Live Database Area
Case 3:19-cv-0C

Page 1 of 5
1-AWT Document 1-1 Filed 05/IE.
6a

Page lot5

APPENDIX E

APPEAL, CONVERTED, BLOCK, 727EXT, 7270BJ, EXHIBITS, 7270BJ, NO_DISCHARGE
U.S. Bankruptcy Court
District of Connecticut (Hartford)
Bankruptcy Petition #: 14-21007
Assigned to: Ann M. Nevins
Chapter 7
Previous chapter 7
Original chapter 7
Involuntary

Debtor
Sheri Speer
151 Talman Street
Norwich, CT 06360
NEW LONDON-CT
SSN / I TIN: xxx-xx-3944

Date filed:
Date converted:
341 meeting:
Deadline for filing claims:
Deadline for objecting to discharge:
Deadline for financial mgmt. course:

05/20/2014
04/24/2015
10/28/2015
08/18/2015
07/20/2015
07/20/2015

represented Sheri Speer
by PRO SE
Vincent J. Fazzone
PO Box 223
Norwich, CT 06360
860-581-0852
Fax: 860-887-2089
Email: fazzonelaw@hotmai 1 .coin
TERMINATED: 04/21/2017
Edward C. Taiman, Jr.
(See above for address)
TERMINATED: 11/03/2017

Petitioning Creditor
Michael Teiger
c/o Conn & Conn Co.
740 North Main Street
West Hartford, CT06117

represented Patrick W. Boatman
by Law Offices of Patrick W. Boatman, LLC
111 Founders Plaza
Suite 1000
East Hartford, CT 06108
860-291-9061
Fax : 860-291-9073
Email: pboatman@boatmanlaw.com
Jenna N. Sternberg
Law Office of Patrick W. Boatman, LLC
111 Founders Plaza
Suite 1000
East Hartford, CT 06108
(860) 291-9061
Fax:860-291-9073
Email: istemberg@boatmanlaw.c6m

https://ecf.ctb.uscourts.gov/cgi-bin/DktRpt.pl7628983579266489-L_l_0-l

5/15/2019

CTB Live Database Area

Case 3:19-cv-C

Page 2 of 5

18-AWT Document 1-1 Filed 05/1

3 Page 2 of 5

7a
Petitioning Creditor
Clipper Realty Trust
Elizabeth Alina, Trustee
100 Plaza Court
P.O.Box 912
Groton, CT 06340

represented Patrick W. Boatman
by (See above for address)
Donna R. Skaats
116 Schem Street
Norwich, CT 06360
(860) 886-9322
Fax: 860-886-9340
Email: attvskaats@snet.net
Jenna N. Sternberg
(See above for address)

Petitioning Creditor
SLS Heating, LLC
Ward Kneeland
52 Prest Street
New London, CT 06320

represented Patrick W. Boatman
by (See above for address)

Petitioning Creditor
Seaport Capital Partners LLC
6 Williams Street
Mystic, CT 06355

represented Patrick W. Boatman
by (See above for address)

Jenna N. Sternberg
(See above for address)

Donna R. Skaats
(See above for address)
Jenna N. Sternberg
(See above for address)

Trustee
Thomas C. Boscarino
Boscarino, Grasso & Twachtman
628 Hebron Avenue, Building 2
Suite 301
Glastonbury, CT 06033
(860)659-5657
TERMINATED: 10/01/2018

represented Thomas C. Boscarino
by Boscarino, Grasso & Twachtman
628 Hebron Avenue, Building 2
Suite 301
Glastonbury, CT 06033
(860)659-5657
Fax : 860-657-4549
Email: tboscarino@bgtlaw.com
TERMINATED: 10/01/2018
John H. Grasso
Boscarino, Grasso & Twachtman LLP
628 Hebron Avenue, Building 2
Suite 301
Glastonbury, CT 06033
(860) 659-5657
Fax : 860-657-4549
Email: igrasso@bgtlaw.com
TERMINATED: 10/01/2018
Bonnie C. Mangan

https://ecf.ctb.uscourts.gov/cgi-bin/DktRpt.pl7628983579266489-L_l_0-l

5/15/2019

CTB Live Database Area

Case 3:19-cv-C

Page 3 of 5

8-AWT Document 1-1 Filed 05/1
8a

) Page 3 of 5

Law Office of Bonnie C. Mangan
1050 Sullivan Avenue
Suite A3
South Windsor, CT 06074
(860) 644-4204
Fax: 860-644-4934
Email: Trtisteernangan@yahoo.com
Trustee
Bonnie C. Mangan
Law Office of Bonnie C. Mangan
1050 Sullivan Avenue
Suite A3
South Windsor, CT 06074
(860) 644-4204

represented Bonnie C. Mangan
by (See above for address)

U.S. Trustee
U. S. Trustee
Office of the U.S. Trustee
Giaimo Federal Building
150 Court Street, Room 302
New Haven, CT 06510
(203)773-2210

represented Holley L. Claiborn
by Office of The United States Trustee
The Giaimo Federal Building
150 Court Street, Room 302
New Haven, CT 06510
(203) 773-2210
Fax: (203) 773-2217
Email: hoilev, 1.claiborn@usdoi.gov
Abigail Hausberg
Office of the U.S. Trustee
Giaimo Federal Building
150 Court Street
Room 302
New Haven, CT 06510
203-773-2210
Fax:203-773-2217
Email: USTPREGION02.NH.ECF@USDQj.GOV
Kim L. McCabe
Office of the U.S. Trustee
Giamo Federal Building
150 Court Street
Room 302
New Haven, CT 06510
203-773-2210x233
Fax:203-773-2217
Email: kim.rncc.abe@usdoi.gov
Kari A. Mitchell
Office of the United States Trustee
Giaimo Federal Building
150 Court Street, Room 302

https://ecf.ctb.uscourts.gov/cgi-bin/DktRpt.pl7628983579266489-L_l_0-l

5/15/2019

CTB Live Database Area
Case 3:19-cv-C

Page 4 of 5
8-AWT Document 1-1 Filed 05/1
9a

3 Page 4 of 5

New Haven, CT 06510
203.773.2210 ext. 224
Fax:203.773.22]7
Email: kari.mitchell@usdoi.gov
Filing Date

Docket Text

#

1806

05/01/2019

ORDER: ECF No. 1785, the debtor Sheri Speer's Motion to
Dismiss, is hereby STRICKEN from the docket of this case. See
ECF No. 1708, an Order Granting Motion for Injunctive Order
Pursuant to D.Conn.L.R. 16(g)(2). Even if the Motion to
Dismiss were not stricken pursuant to ECF No. 1708, it is
DENIED on the merits for the reasons stated during a hearing
held on May 1,2019. Ms. Speer appeared at the May 1 st
hearing and supplemented her written motion with oral
argument. The Court has considered all issues and arguments
made by Ms. Speer in support of her most recent Motion to
Dismiss, both in the written motion and during oral argument,
and finds them to be without merit. Accordingly, Ms. Speer's
fifth attempt to dismiss this Chapter 7 case is stricken, and if not
stricken, is denied. On or before May 1,2019 the Clerk's Office
shall serve this Order on Sheri Speer the Pro Se filer/litigant, via
first class mail to the address listed on the Pro Se filer/litigant's
pleading filed in the case. Signed by Judge Ann M. Nevins on
May 1,2019 (RE: 1785 Motion to Dismiss Case For under 11
USC 707(a) as well as 11 USC 303(i) and 305(a) Filed by Sheri
Speer, Debtor). (Morgan, Nashae) (Entered: 05/01/2019)

PACER Service Center
Transaction Receipt
PACER
Login:

05/15/2019 09:00:15
Client
Nickfanel6NV:5449188:0
Code:

Description: Docket Report

14-21007 Filor Ent:
filed Doc From:
1806 Doc To: 1806
Search
Term: included
Criteria: Format: html Page
counts for
documents:
included

Billable
Pages:

Cost:

3

0.30

https://ecf.ctb.uscourts.gov/cgi-bin/DktRpt.pl7628983579266489-L_l_0-l

5/15/2019

CTB Live Database Area
Case 3:19-cv-0f

Page 5 of 5
1-AWT Document 1-1 Filed 05/lf
10a

https://ecf.ctb.uscourts.gov/cgi-bin/DktRpt.pl7628983579266489-L_l_0-l

Page 5 of 5

5/15/2019

Case 3:19-cv-00

-AWT Document 20-1 Filed 10/0

) Page 1 of 6

11a

APPENDIX F
DOCKET NO. HHD-CV19-5061047-S :

SUPERIOR COURT

SHERI SPEER

i

J.D.OF HARTFORD

VS

•*;

AT HARTFORD

STUART COHEN

s .♦ SEPTEMBER 26.2019
STIPULATED JUDGMENT

WHEREAS, this action was' brought and returnable to Hartford Superior
Court; and
WHEREAS, the Parties desire to settle and resolve this Action and any
and all Claims between them, whether asserted or unasserted, known or
unknown, including, but not limited to those arising out of or in connection with
this Action; and
WHEREAS the Parties wish to avoid the inconvenience, cost and
uncertainty of protracted litigation; and
NOW, THEREFORE, in consideration of the mutual covenants and
undertakings set forth herein, the sufficiency of which is acknowledged, the
Parties hereto agree and freely stipulate that judgment enter in this matter as
follows:

?

A. Stuart Cohen agrees, deposes and swears to the best of his
knowledge and belief that:
1. Stuart Cohen admits, swears and avers all the allegations set forth in
the Complaint in this matter are true.
2. He was contacted by Attorney Donna Skaats on behalf of Seaport
Capita! Partners, LLC numerous times during 2013 and 2014 in order to
secure his participation on Dr. Teiger's behalf in an involuntary
bankruptcy that was eventually filed end captioned in Re Speer 14-21007
(’The Bankruptcy"), and that Attorney Donna Skaats knew Attorney
Robert Weinstein represented both he and Dr. Teiger at that time and
was never aware of any permission granted by Attorney Robert
Weinstein to have direct contact with him on that matter, and that
Attorney Donna Skaats represented Seaport Capita! Partners, LLC in
forecosure actions adversarialiy against Dr. Teiger's interests. Stuart
Cohen admits that he was deceived and unduly influenced into
participating in the Bankruptcy and committing Dr. Teiger on as the third
petitioner necessary to meet the requirement to place the Plaintiff in an
involuntary bankruptcy. Stuart Cohen further swears and avers that
. .1 OF 6

;
j

Case 3:19-cv-0i

3-AWT Document 20-1 Filed 10/1

.9 Page 2 of 6

12a

Attorney Skaats falsely represented to him that participating in this
Bankruptcy would obtain payment for Dr. Teiger, and he further
swears and avers that Attorney Skaats sought his participation when the
Plaintiff was still making timely payments on her loan to Dr. Teiger.
3. The Loan to Dr. Teiger was not paid as a consequence of Attorney
Skaats1 inducement of Stuart Cohen to, in a manner Dr. Teiger never
condoned or made,an informed, knowing and intelligent authorization
commit Dr. Teiger as the third petitioning creditor. In doing so, Stuart
Cohen swears and avers that he followed the legal advice given to me by
Attorney Donna Skaats, which included obtaining, under these pretenses,
a power of attorney from Dr. Teiger in order to commit him as a petitioning
creditor in the Bankuptcy. Consequently, it is now the Parties'
understanding that the Teiger loan Is impossible to collect, and Dr. Teiger
has, to the Parties' understanding, now given up any hope or prospect of
collecting it, and this understanding is also consistent with orders entered
by the Superior Court in an action assigned docket number X07-HHDCV17-6078758-S.
4. Stuart Cohen swears, avers and deposes that Attorney Donna Skaats
never disclosed to him; (1) the existence of a May 2014 trial where
Seaport Capital Partners, LLC's claims would be tried; (2) the Plaintiffs
counterclaims and special defenses pertaing to those claims; (3) that
Seaport Capital Partners, LLC held mortgages superior to those of Dr.
Teiger, which could have been rendered unenforceable in the event the
Plaintiff prevailed at the trial; and that (4) the involuntary bankruptcy
petition would be tiled on the day prior to the trial, thereby preventing it
* from going forward.
5. Stuart Cohen swears, deposes and agrees that Seaport Capital
Partners, LLC retained the services of Attorney Patrick Boatman and paid
all the legal bills and costs to initiate and prosecute the Bankruptcy.
Stuart Cohen further agrees that dang so and continuing to do so is in
violation of orders entered by the Hartford Superior Court in a case
assigned docket number X07-HHD-CV17-6078758-S and captioned
PEREZ, JORGE, COMMISSIONER OF BANKING, STATE OF CO Et Al
r v. COHEN, STUART L., DBA CONN & CONN CO. ("Banking
Commission Action") that; (1) ail loans brokered by Stuart Cohen were
declared to be not be in default nunc pro tunc; (2) all efforts of any
agents, employees or other sen/ants acting to enforce said loans (of
which Attorney Patrick Boatman Is one) cease; and (3) ail monies or
properties collected or obtained during the course of enforcing said loans
by aforesaid agents, employees or ether servants acting to enforce said
loans be turned over to the Receiver appointed in die Banking

\

i

;

;
i

)
•

i

.2 OF 6

i

Case 3:19-cv-0i

3-AWT Document 20-1 Filed 10/1

.9 Page 3 of 6

13a

Commission Action. Stuart Cohen swears and affirms that he has no
knowledge that Attorney Patrick Boatman has either complied with such
orders or taken any such actions to comply with them.
6. Stuart Cohen sweara, affirms and agrees that he has had adequate
opportunity to consult counsel prior to entering into this agreement, he
does so voluntarily, he does so willingly, he does so without any undue or
improper influence, and fie does so without any undue influence of
alcohol, drugs or any other mental impairment.
B. StuattCpheo^aftreesloJnstiiict A]
ait4wIthlMWtrf2V^^ess-davs-o!enferinj3 into! ^tlp^ategTiudgrit^rtHat ‘
haif^arrd-wasi'rrt/loiafio^ Dr.Jja
of orders entered by^teHamord Superior Cq&i^'ria a case assigned docket
number X07-HHD-CVlMq78758-S and captioned PEREZ, JORGE,
COMMISSIONER OF BANKING, STATE OF CO Et Al v. COHEN, STUART L.
DBA CONN & CONN CO. that: (1) loans brokered by Stuart Cohen were
declared to be not be in default nunc pro tunc; (2) all efforts of any agents,
employees or other servants acting to enforce said loans (of which Attorney
Patrick Boatman Is one) cease; and (3) all monies or properties collected or
obtained during the course of enforcing said loans by aforesaid agents,
employees or other servants acting to enforce said loans be turned over to the
Receiver appointed in the Banking Commission Action. Stuart Cohen further
agrees to instruct Attorney Patrick Boatman to inform the Bankruptcy Court of
this instruction, and to take action to formally comply with such orders by: (1)
taking all steps necessary for the removal Dr. Teiger as a petitioning creditor in
the Bankruptcy (nunc pro tunc); and (2) making an accounting of his doings and
collections activities associated with the Dr. Teiger Loan to the Plaintiff with the
Receiver appointed in the Banking Commission Action.
• C. Stuart Cohen agrees to make himself 'reasonably, available, for "“""l
testimony in the^'ankrwiptcf or angtrifljer matt^r^lated thereto to any extent i
necessary toe^ctuate^^therwiS^et in motion the foregoing instructions to ^
be made bynim to Attorney Patrick Boatman.
D. The Parties agree that, upon full performance of Stuart Cohen
pursuant to this Stipulated Judgment, that it shall resolve any and all causes of
action in favor either one against the other from the date of the execution of this
agreement to the Beginning of Time, and that neither shall forever not bring an
action against the other pertaining to any such claims, known or unknown,
asserted or unasserted. Full performance under this Stipulated Judgment shall
operate as a full release of Stuart Cohen for any such claims.
E. The Parties to this Settlement Agreement agree that they have
consulted with counsel of their choosing prior to execution of this Settlement

3 OF 6

<?K_

oc

rr-Kx?'*.

Case 3:19-cv-0C

1-AWT Document 20-1 Filed 10/C

i

9 Page 4 of 6

14a
j

Agreement, fully understand their respective rights and obligations under this
Stipulated Judgment, and actively negotiated the terms and conditions of this
Stipulated Judgment so that no Party hereto shall construe the terms and
conditions of this Settlement Agreement against the other Party based upon
which Party drafted the same.
F. All the Parties acknowledge and agree that the consideration set forth
herein constitutes full, fair and adequate consideration for the releases,
warranties, covenants and promises made by them in this Stipulated Judgment.
It is agreed, acknowledged and understood that this Stipulated Judgment shall
be binding upon each of the Parties’ respective officers, directors, principals,
members, shareholders, former and present employees, agents,
representatives insurers, subsidiaries, affiliates, parents, heirs, executors,
administrators, successors and assigns, as is applicable.
G This Stipulated Judgment contains the entire agreement of the Parties
and fully supersedes any and ail prior negotiations, agreements and
understandings of the Parties, whether ora! or written, with respect to the
subject matter hereof, it is acknowledged and agreed that the subject matter of
this Stipulated Judgment is a settlement of the Action and any other disputes or
potential disputes between the Parties.
H. This Stipulated Judgment may not be modified or changed in any way
except by a writing signed by all of the Parties hereto. The Parties expressly
acknowledge that the terms of this Stipulated Judgment state the only
consideration for signing, that no other promise or agreement has been made,
and no party hereto signed in any reliance on any representation not stated
herein. The parties further agree that this Agreement reflects the joint drafting
efforts of the Parties, and that no rule of construction or interpretation regarding
any alleged ambiguities in this Agreement shall be applied against any Party.
i. A breach by a party to this Stipulated Judgment shall not constitute a
breach as to the other non-breaching parties and shall not affect the rights of
the non-breaching parties hereunder except as stated below.
J. The provisions of this Stipulated Judgment are severable and a finding
of invalidity or unenforceabiity tsf one or more of its provisions shall not affect
the validity and enforceability of the other provisions.
K. The Parties agree that they foreever, fully and absolutely waive any
and all right to appeal, and that this Stipulated Judgment shall enter in this
matter as a final judgment binding upon both Parties and entirely conclusive to
the daims herein.
L. This agreement may be enforced by appropriate motion made to the
Hartford Superior Court.

'

;
:
j

i!

;

}

;
i
{

«

4 OF 6

*
•

j

\

Case 3:19-cv-0f

VAWT Document 20-1 Filed 10/C

9 Page 5 of 6

15a
i
PLAINTIFFS VERIFICATION AND AGREEMENT TO ENTER INTO
STIPULATED JUDGMENT

I, Sheri Speer, hereby agree to the foregoing, have had adequate
opportunity to consult counsel prior to entering into this agreement, he
do so voluntarily, do so willingly, do so without any undue or
improper influence, and do so without any undue influence of
alcohol, drugs or any other mental impairment.

OATH
STATE OF CONNECTICUT
*5* SSti

COUNTY OFHar'Hvrd
Sheri Speer, having satisfactorily identified herself, piade oath as to the
foregoing instrument as her own free act and deed thisa^jday of September,
2019.
'
s.

/ W/Jtho,
#1 \ui iitTu.U‘
Notary Pubjitr

My Commission Expires

KATHERINE ALBETSKI
Notary Public, Stele of Connecticut
My Commission Expires November 30,2021

5 OF 6

Case 3:19-cv-0(

*:■

i-AWT Document 20-1 Filed 10/C

3

16a

Page 6 of 6

;

i

DEFENDANTS VERIFICATION AND AGREEMENT TO ENTER INTO
STIPULATED JUDGMENT
:

I, Stuart Cohen, hereby agree to the foregoing, have had adequate
opportunity to consult counsel prior to entering into this agreement, he do so voluntarily, do so willingly, do so without any undue or
improper influence, and do so without any undue Influence of
alcohol, drugs or any other mental impairment.

*:

1

J

i
:

i vj f

Siart^CoW
OATH
STATE OF CONNECTICUT

;

s.s.
COUNTY OF

i

H/lrifnfd

i

Stuart Cohen, having satisfactorily identified himself, made oath as to the
foregoing instrument as his own free act and deed this
day of September,
2019. .

!
;

;v

li-3 Q-3l\

;

My Commission Expires
;

i
5

?

w&snsi&sasbj

i

•<

6 OF 6

i
.*
!

